<html>
<title> - THE ROHINGYA CRISIS: U.S. RESPONSE TO THE TRAGEDY IN BURMA</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
       THE ROHINGYA CRISIS: U.S. RESPONSE TO THE TRAGEDY IN BURMA

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 5, 2017

                               __________

                           Serial No. 115-99

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                       
                       
                       
                       
                       
                       

                                 ______
                                 
                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
 27-063 PDF                 WASHINGTON : 2018       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                                      
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. W. Patrick Murphy, Deputy Assistant Secretary for Southeast 
  Asia, Bureau of East Asian and Pacific Affairs, U.S. Department 
  of State.......................................................     5
The Honorable Mark C. Storella, Deputy Assistant Secretary, 
  Bureau of Population, Refugees, and Migration, U.S. Department 
  of State.......................................................     7
Ms. V. Kate Somvongsiri, Acting Deputy Assistant Administrator, 
  Bureau for Democracy, Conflict, and Humanitarian Assistance, 
  U.S. Agency for International Development......................    16

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. W. Patrick Murphy and the Honorable Mark C. Storella: 
  Prepared statement.............................................     9
Ms. V. Kate Somvongsiri: Prepared statement......................    18

                                APPENDIX

Hearing notice...................................................    48
Hearing minutes..................................................    49
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York: Material submitted for the record.......    51
The Honorable David Cicilline, a Representative in Congress from 
  the State of Rhode Island: Material submitted for the record...    59
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    62
Written responses from Mr. W. Patrick Murphy and Ms. V. Kate 
  Somvongsiri to questions submitted for the record by the 
  Honorable Edward R. Royce, a Representative in Congress from 
  the State of California, and chairman, Committee on Foreign 
  Affairs........................................................    64
Written responses from Mr. W. Patrick Murphy to questions 
  submitted for the record by the Honorable Eliot L. Engel.......    69
Written response from Ms. V. Kate Somvongsiri to question 
  submitted for the record by the Honorable Ann Wagner, a 
  Representative in Congress from the State of Missouri..........    83


       THE ROHINGYA CRISIS: U.S. RESPONSE TO THE TRAGEDY IN BURMA

                              ----------                              


                       THURSDAY, OCTOBER 5, 2017

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 9:10 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order.
    Before my opening statement, without objection, I would 
like to play a short video from our friends at Radio Free Asia 
that highlights very much the scope and severity of the 
violence against the Rohingya. So if that is prepared, let's 
play that right now.
    While we are waiting for that, I see Mrs. Muhammad Ali in 
the audience, and I wanted to thank her for her focus on this 
issue, and appreciate her presence with us here today. Thank 
you.
    [Video shown.]
    Chairman Royce. So one of the reasons that I thought we 
would show the video from Radio Free Asia is to make a point: 
There is very little information outside of these types of 
coverage that are coming into the outside world, and more 
importantly, the Burmese people themselves. In Myanmar, there 
is no coverage of this information, so people do not actually 
know what is happening. The generals that run the country have 
a different narrative. And so there is very little recognition 
of the reality.
    In order to get to that reality, it is very important that 
we get reporters in on the ground, that we get USAID in to 
Myanmar, that we get the United Nations back in some way into 
Myanmar in order to cover. Because as long as that presence is 
there, it is a check to these types of atrocities.
    Now, there are few more pressing demands with respect to 
our attention to this immediate moment where we can do 
something to halt mass killings than the situation right now 
with respect to the plight of the Rohingya. As is often pointed 
out, for generation after generation now, they have been one of 
the most persecuted people in the world. And last week, for 
example, we heard testimony from two witnesses who had just 
returned from refugee camps in Bangladesh, and they told 
horrific stories. We heard from a young mother, torn from her 
burning home, separated from her husband and three daughters, 
finding out later that her husband had been brutally killed. 
Her story is just one of countless stories that we are now 
hearing about Rohingya refugees that are torn from their homes, 
that are forced to flee under these horrible conditions.
    For decades now, the Burmese Government has systematically 
suppressed the Rohingya people. A 1982 citizenship law denies 
Rohingya Burmese citizenship, even though most have lived in 
that country for generation after generation. They have been 
denied freedom of movement. They do not have access there to 
education or to healthcare. They have been marginalized by 
every level that the Burmese Government can marginalize them, 
from top to bottom. Formerly someone who was a minister, I 
talked with him, and he had had his citizenship stripped, and 
could no longer run for office because he was deemed to be of 
Rohingya blood. This is the reality that these people face in 
terms of not being able to even speak up for themselves.
    Recently, we have seen the horrors of this decades-old 
persecution. And there is ARSA, a fringe militant group that 
has carried out attacks there and, thus, sparked a new round on 
top of the old pogroms that we saw over the last few years 
directed against the Rohingya. So now you have an estimated 
507,000 Rohingya that have been driven from their homes. Most 
of that had been forced to cross over to the border into 
Bangladesh, hundreds have been killed. But as they say, you 
don't have journalists able to cover the story. They are denied 
access to the area, so I am sure it is more than the reported 
number, much higher. Two hundred villages have been burned to 
the ground, land mines have been placed inside Burma's border 
with Bangladesh, so that is maiming some seeking safe haven. It 
is little wonder that the U.N.'s human rights chief called this 
a textbook example of ethnic cleansing.
    Bangladesh deserves credit, and I talked again with the 
Bangladesh Ambassador the other day. They deserve credit for 
opening their borders to this influx of refugees. The 
government, I know, will honor its promise in Bangladesh to 
build shelter for new arrivals and provide medical services.
    In response to this crisis, the Trump administration 
announced that it would provide $32 million in humanitarian 
assistance, and $20 million of that is going to Bangladesh 
right now. And the remainder is supposed to go into Rakhine 
State in Burma. And that is most welcomed.
    The State Counselor, Aung San Suu Kyi, she is a Nobel Prize 
winner, but she must make it a top priority to provide for the 
safety of those in Burma, including the Rohingya. This is a 
dialogue I have had with her for a number of years on this 
subject, and the international community is pressing her as 
well. We know the military government is calling the shots, but 
we expect everybody who has access to a microphone inside 
Myanmar to tell people the reality of what is going on in the 
country, and that includes her. We know they are not hearing it 
from their media, but they have to hear it from other sources, 
and that is why I appreciate Radio Free Asia broadcasting this 
information in.
    Her recent statement questioning why the Rohingya were 
fleeing and denying that the military had conducted clearance 
operations, that is factually false. That is exactly what the 
military is doing there. As I made clear when I wrote her a 
month ago, her government and the military have a 
responsibility to protect all of the people of Burma, 
regardless of their ethnic background or religious beliefs. 
Those responsible for these atrocities must face justice. She 
and the military generals must rise to this challenge. This is 
ethnic cleansing. The protection of human rights has been our 
Nation's top priority in Burma, including freeing Aung San Suu 
Kyi. And today, that must also include the Muslim Rohingya 
people.
    This is a moral issue, and it is a national security issue. 
No one is more secure when extremism and instability is growing 
in this part of the world. And I look forward to hearing from 
the administration on how it is using the tools that we have to 
end this humanitarian and human rights crisis.
    And I now turn to our ranking member for his statement.
    Mr. Engel.
    Mr. Engel. Well, thank you very much, Mr. Chairman. And as 
always, thank you for calling this hearing. And let me thank 
all witnesses and welcome you all to the Foreign Affairs 
Committee. You are very welcomed.
    The Rohingya crisis rages more than 8,000 miles from 
Washington. At that distance, events like this can seem remote. 
So during my statement, I ask that we display some images that 
show the reality facing the people of Burma right now as a 
reminder of the human tragedy unfolding as we sit here today. 
These images are the result of the unprecedented level of 
violence in Burma's Rakhine State over the past 6 weeks. 
Violence that police and security forces have inflicted on 
civilians, interethnic and interreligious violence between 
Buddhist, Rakhine, and Muslim Rohingya.
    Because of this bloody conflict, more than \1/2\ million 
Rohingya, 60 percent of whom are children, have fled as 
refugees across the border into Bangladesh. More than 400,000 
people left in the first 30 days, the swiftest exodus of any 
population since the 1994 Rwanda genocide and Serbia's 1999 
ethnic cleansing in Kosovo. Now, nearly three-quarters of those 
who have fled don't have adequate shelter and half have no safe 
drinking water. It is a heartbreaking humanitarian disaster and 
it is getting worse.
    The Burmese military has claimed that this brutal crackdown 
is the response to a clash that took place on August 25, in 
which border security forces faced off against Rohingya 
insurgents, reportedly using knives, small arms, and small 
explosives. But this isn't just some skirmish that has gotten 
out of hand, it isn't a legitimate counterinsurgency or 
counterterrorism operation. The Burmese military and border 
security forces have specifically targeted Rohingya using 
medieval tactics: Slash and burn, rape, indiscriminate killing. 
Twenty-one square kilometers of villages systematically burned 
to the ground. The U.N.'s top human rights officials have 
called this a textbook case of ethnic cleansing. This flareup 
is not an isolated event, but the latest chapter in a long 
history of discrimination against the Rohingya, a history in 
which they have been denied citizenship, the ability to work, 
freedom of movement.
    A few key Burmese leaders have figured prominently into 
recent events. As I see it, the only person in Burma who can 
put an end to this violence, clear the way for humanitarian 
aid, and allow for a full accounting of what occurred is Min 
Aung Hlaing, commander-in-chief of the Burmese military. 
Unfortunately, the intention of the military is clear: To 
remove the Rohingya people from Burma.
    Some of those watching this horror have laid part of the 
blame at the feet of Aung San Suu Kyi, the moral and civilian 
leader of Burma. There is speculation that she is either not 
getting accurate information or is severely constrained 
politically. Some assert that she is unsympathetic to the 
events in Rakhine, but I personally have a hard time believing 
that a noble laureate, a champion of democracy, and a person of 
her moral fortitude, she has come here, we have met with her, 
would turn a blind eye to the immense human suffering taking 
place in her country.
    I think American policy toward Burma has complicated the 
situation. The Burmese military drafted the constitution, which 
allows the military to operate with impunity, maintain veto 
power in the Parliament, and legally retake control over the 
government. And yet when the United States lifted economic 
sanctions against Burma, we also lifted sanctions against the 
military and the businesses that fund them. So while Aung San 
Suu Kyi has little leverage to reign in military forces that 
run amuck, it is now legal for American companies to do 
business with Burmese military-owned companies. It is seems to 
me at a time that the Burmese military is waging this sort of 
violence against innocent people, we should reconsider our 
policy on targeted sanctions. And in the meantime, we need to 
confront a serious humanitarian crisis that is going to persist 
for years to come.
    The United States has allocated $38 million to assist with 
the crisis. That number seems grossly inadequate, considering 
the scale of the humanitarian nightmare now facing the 
Government of Bangladesh, and this is in addition to the 
Rohingya still trapped inside Burma. Bangladesh, a country with 
an average income of around $1,300, is currently supporting 
nearly 1 million refugees. This is a country that already has 
close to the highest population density in the world. I want to 
recognize Bangladesh's Ambassador, Mohammad Ziauddin, who is 
here today.
    Your government has shown tremendous generosity in 
welcoming these refugees. Thank you. And while your country 
opens its doors, I consider it an embarrassment that the United 
States is closing ours. The Trump administration has lowered 
our yearly cap on refugees from all over the world to 45,000 
per year, the smallest number ever. As this crisis grows worse, 
and as it grew worse, Bangladesh took in that many people every 
4 days.
    This policy harms American leadership on the global stage. 
It undermines our ability to speak credibly about refugees' 
human rights, while living up to basic international 
humanitarian principles. It diminishes our standing in the part 
of a world where China is only too happy to fill the void. So I 
do want to hear what our approach is. How the administration 
plans to deal with the crisis facing, not just the Rohingya, 
but the Kachin, the Shan, and other ethnic groups under assault 
by the Burmese army, how this violence subverts the peace 
process and undermines the democratically elected government. 
So I look forward to your testimony.
    I thank you, again, Mr. Chairman, and I yield back.
    Chairman Royce. Thank you.
    So we are joined by a distinguished panel here. We have Mr. 
Patrick Murphy, serves as the Deputy Assistant Secretary for 
Southeast Asia at the Department of State. And previously, Mr. 
Murphy served as Special Representative for Burma, among other 
senior positions.
    We have Ambassador Mark Storella with us. He is the Deputy 
Assistant Secretary in the Bureau of Population, Refugees, and 
Migration at the State Department. Previously, he served in 
multiple senior positions, including serving as the Deputy 
Chief of Mission in Brussels and as U.S. Ambassador to Zambia.
    We have Ms. Kate Somvongsiri. She serves as the acting 
Deputy Assistant Administrator for the Bureau for Democracy, 
Conflict, and Humanitarian Assistance at USAID. She has served 
in a variety of senior positions at USAID where she is focused 
on rule of law and on human rights issues.
    So, without objection, the witnesses' full prepared 
statements are going to be made part of the record. Members 
will have 5 calendar days to submit any statements or any 
questions they have for the witnesses or any extraneous 
material for the record.
    So if you would, Mr. Murphy, I would ask you to summarize 
your remarks.

STATEMENT OF MR. W. PATRICK MURPHY, DEPUTY ASSISTANT SECRETARY 
 FOR SOUTHEAST ASIA, BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS, 
                    U.S. DEPARTMENT OF STATE

    Mr. Murphy. Chairman Royce, Ranking Member Engel, 
distinguished members of the committee, I greatly appreciate 
the invitation to testify on the devastating human tragedy in 
Burma's Rakhine State, and the suffering of ethnic Rohingya and 
other populations. I first want to thank this committee for its 
leadership on Burma, and Congress, in general, for the 
bipartisan collaboration with successive administrations over 
many decades working on Burma.
    Over the past 6 weeks, militant attacks on security forces 
and on local residents, a disproportionate military response, 
vigilante violence, and a lack of civilian protection have 
aggravated longstanding challenges in Rakhine State. The 
current crisis has led to the desperate flight of over \1/2\ 
million refugees and displaced others internally. This massive 
and virtually unprecedented population movement has worsened 
the humanitarian situation in Bangladesh where many Rohingya 
refugees already shelter.
    This administration is undertaking all efforts to end the 
suffering immediately. We have made clear to Burmese civilian 
and military officials they must take urgent actions and steps 
to stop the violence, respect the rule of law, pave a path for 
safe return, and hold accountable those responsible for abuses. 
In spite of assurances that security operations have ended, 
there are continuing reports of violence, including civilians 
participating in arson attacks and blocking humanitarian 
assistance.
    Those who have fled must be able to return to their homes 
voluntarily. State Counselor Aung San Suu Kyi has stated that 
Burma will allow their return, and we are encouraging closer 
communication between Burma and Bangladesh. The two sides met 
this week and formed a joint committee to address repatriation.
    Most urgently, we must ensure that humanitarian aid reaches 
people in need. My colleagues will speak to this, but on the 
diplomatic front, we are working to overcome security 
challenges and local resistance in Rakhine State that have 
precluded many U.N. agencies and NGOs from reaching affected 
areas. We are also pressing for unfettered media access so that 
we can all learn in greater detail what is happening.
    President Trump has discussed the situation with leaders 
from Southeast Asia. Secretary of State Tillerson called Aung 
San Suu Kyi to urge action. Vice President Pence denounced the 
military's disproportionate response. U.S. Ambassador Haley 
called the Security Council for an international role. This 
crisis has implications far beyond Rakhine State. Burma's 
nascent democracy is at a turning point, and a heavy-handed 
response invites international terrorists and challenges for 
other neighbors. We are thus engaging with ASEAN to address 
humanitarian needs and actions to stop the violence.
    I was in Burma myself 2 weeks ago. Our Ambassador and I met 
with top government and military officials, including Aung San 
Suu Kyi. Authorities committed to protect civilians, pursue 
accountability, and cooperate with the international community. 
The situation on the ground, nonetheless, remains grim. We must 
pursue all efforts to see full implementation of these 
commitments. I also visited Rakhine State. I met with members 
of the displaced Rohingya community. They condemn the violent 
attacks on security forces. I called on local officials and 
political figures in Rakhine State, as leaders of ethnic 
Rakhine communities, to end violence, facilitate assistance, 
and respect the rule of law.
    Under a government elected in 2015 by the people of Burma 
for the first time in half a century, there are efforts to 
address inherited longstanding challenges of discrimination and 
neglect. One such effort was the establishment of the Annan 
Rakhine Advisory Commission, which produced valuable 
recommendations to address these challenges. The government 
committed to implementing those recommendations.
    The U.S. Government is forming an overarching policy 
response to discourage abuses, ensure accountability, and 
further advance the democratization and development processes 
so desperately needed in Burma, and especially in Rakhine 
State. We will not do this alone. We are consulting with the 
region, the United Nations, the Human Rights Council, and 
courageous voices inside Burma to ensure human dignity for all.
    The current crisis in Rakhine has exposed the fragility of 
a transition we and Congress worked so hard to help achieve. 
The governing complexities underscore that no single actor can 
resolve this crisis. The national and local governments, 
security forces, community leaders, and indeed all peoples of 
Burma, have responsibilities.
    Mr. Chairman, members of the committee, we are strongly 
engaged to bring an end to this suffering and to find lasting 
solutions in Rakhine State. We look to Congress as an essential 
partner in these efforts, and we thank you for the opportunity 
to describe what we are doing to address this tragic crisis. 
Thank you, Mr. Chairman.
    Chairman Royce. Thank you. Ambassador?

 STATEMENT OF THE HONORABLE MARK C. STORELLA, DEPUTY ASSISTANT 
SECRETARY, BUREAU OF POPULATION, REFUGEES, AND MIGRATION, U.S. 
                      DEPARTMENT OF STATE

    Ambassador Storella. Chairman Royce, Ranking Member Engel, 
distinguished members of the committee, thank you for inviting 
us to this important hearing on the U.S. response to the 
violence against Rohingyas in Burma. I am grateful for the 
opportunity to update you on how the U.S. Government is 
targeting lifesaving aid and on the challenges ahead.
    The violence in Rakhine State continues to devastate 
vulnerable populations within Burma, and cause families, mostly 
women and children, to flee their homes for their lives. In 
terms of magnitude and speed, this is one of the most dramatic 
humanitarian emergencies to occur in decades.
    I will briefly comment on the current humanitarian 
situation facing those affected by the crisis, discuss the 
challenges the international community faces in delivering 
humanitarian assistance, and comment on what the State 
Department is doing to address the situation.
    The attacks on August 25 and the continuing violence 
resulted in approximately 200,000 internally displaced inside 
Burma and prompted, as has been noted, more than \1/2\ million 
people to flee to Bangladesh, bringing the total number of 
Rohingya in Bangladesh to over 1 million people.
    The number one humanitarian priority, as the chairman and 
the ranking member both have noted, is access in Burma, gaining 
access to those in need in Rakhine State. Burma's civilian 
government has committed publicly and privately to provide 
humanitarian assistance to all communities in affected areas 
through the Red Cross movement. The movement has stressed to 
the Burmese Government that it will not be able to fully meet 
humanitarian needs, and that U.N. agencies and international 
law and governmental organizations will also require 
operational space in northern Rakhine State. We take every 
opportunity to emphasize to Burmese officials at all levels of 
the government the need to allow humanitarian assistance to 
those in need.
    This week, PRM Acting Assistant Secretary Simon Henshaw met 
with Burmese officials at the UNHCR Executive Committee 
meetings in Geneva to express our profound concern. In all our 
contacts with Burmese officials, we continue to press the 
government and the military, both publicly and privately, to 
end the violence, to protect the security of all communities, 
and to allow Rohingya refugees to voluntarily return to their 
homes after Burmese authorities ensure they can do so safely.
    We are greatly appreciative of the Government of Bangladesh 
for opening its borders to those fleeing the violence, many of 
whom arrived after walking for days and in need of food, water, 
and medical care. The monsoon season has exacerbated the 
situation, as flooding and poor infrastructure made aid 
delivery even more challenging.
    In every meeting with Bangladeshi officials, we thank them 
for allowing refugees to cross into their country in such large 
numbers, and urge them to uphold humanitarian principles while 
balancing their own security concerns. Earlier this week, I met 
with a high-level delegation from Bangladesh here in Washington 
for the U.S.-Bangladesh Security Dialogue, which included the 
discussion of the violence in Rakhine State and the 
humanitarian crisis in Bangladesh. Our Ambassador in Dhaka, 
Ambassador Bernicat, recently visited the refugee encampments 
at Cox's Bazar and has been in constant contact with 
Bangladeshi authorities on humanitarian issues.
    In addition to our diplomatic engagement, the U.S. is 
providing humanitarian assistance to our U.N. and other 
humanitarian partners to help vulnerable populations affected 
by the Rakhine State violence. The U.N. has estimated $434 
million is needed for emergency response in Bangladesh through 
February 2018.
    In fiscal year 2017, thanks to the support from this 
Congress, the United States contributed nearly $104 million in 
assistance to displaced populations in Burma and for refugees 
from Burma throughout the region. Of this funding, the State 
Department's contribution totaled nearly $76 million. This 
included the nearly $32 million <greek-l>dollars  deg.in 
emergency assistance, to which you have referred, which we 
announced in September, that allowed our partners to respond 
immediately as thousands were arriving daily in the already 
established and new settlements in Bangladesh. Our 
contributions provide lifesaving assistance, such as food, 
water, shelter, sanitation, health, and core relief items, and 
support to victims of gender-based violence. We are urging 
other donors to do more as well.
    I would like to conclude, Mr. Chairman, by highlighting 
that in responding to this crisis, the State Department's 
primary concerns are protection and achieving meaningful, 
durable solutions for those who have been displaced, including 
the chance to go home in safety and dignity when conditions 
permit. The U.S. Government's humanitarian assistance provides 
an important lifeline until that possibility becomes a reality.
    In concluding, thank you to the Congress for all that you 
have done, and thank you for the way you authorize funds so 
that we are able to react quickly to these urgent requirements. 
Thank you.
    [The prepared statement of Mr. Murphy and Ambassador 
Storella follows:]
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              ----------                              

    Chairman Royce. Thank you, Ambassador. Kate Somvongsiri.

 STATEMENT OF MS. V. KATE SOMVONGSIRI, ACTING DEPUTY ASSISTANT 
ADMINISTRATOR, BUREAU FOR DEMOCRACY, CONFLICT, AND HUMANITARIAN 
     ASSISTANCE, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Ms. Somvongsiri. Chairman Royce, Ranking Member Engel, 
members of the committee, thank you for inviting me to speak 
today and for your engagement on this important issue.
    The recent escalation and violence in Northern Burma has 
resulted in massive displacement, as we have discussed, and 
increased humanitarian needs both in Burma and in neighboring 
Bangladesh. Burma has come a long way in its transition to a 
free and democratic society. These events, however, not only 
imperil the lives of thousands, but also cast a cloud over 
Burma's gains and threaten to undermine economic progress.
    Over 500,000 people, as we have discussed, mostly Rohingya, 
have fled the recent violence in Rakhine and have sought refuge 
in Bangladesh. For a sense of scale, that is nearly the entire 
population of Washington, DC, leaving the city in just over a 
month's time. And in addition, there are tens of thousands of 
people who have been internally displaced and are in need of 
assistance within Rakhine State.
    USAID is providing humanitarian assistance in Burma, 
helping host communities in Bangladesh cope with the influx of 
refugees, and addressing tensions in ethnically mixed areas of 
Rakhine and Burma, including those not directly affected by the 
recent violence.
    As a foreign service officer who lived on the Thai-Burma 
border 16 years ago working with migrants and refugees, Burma 
is for me as it is for many, a special place, and has 
influenced my path in international human rights and 
development. In my testimony, I will touch on USAID's response 
to the current crisis and highlight some of the challenges of 
providing assistance and bringing lasting resolution to this 
conflict.
    In Burma, our main humanitarian challenge is not a lack of 
resources, but a lack of access. Since the August 25 attacks, 
many of USAID's partners were forced to suspend their work due 
to military security operations in Rakhine State. Insecurity, 
government restrictions, and local communities' enmity toward 
U.N., international NGOs, and local staff, have prevented full 
humanitarian access, including along the border. False and 
misleading rumors about Rohingya spread and fanned by official 
government information have contributed to this volatility.
    We continue to call upon all parties to allow unfettered 
humanitarian access to people in need, and we urge the 
government to allow media and human rights monitors to access 
the afflicted areas.
    Reports of atrocities against civilians are extremely 
troubling and demonstrate the need for humanitarian assistance 
and protection from further violence, which are urgently 
needed. Together with our colleagues at State, along with the 
international community, USAID's mission in Burma has 
reiterated our concerns to the Burmese Government and has 
called on them to end the violence, ensure that people have 
dignified, safe, and voluntary return to their homes. 
Additionally, USAID continues to support civil society within 
Rakhine State and across Burma to prevent the escalation of 
violent conflict, and to counter hate, speech and rumors.
    The speed and volume of people fleeing from Burma to 
Bangladesh has been staggering. We have seen, as we have 
discussed, over 500,000 flee in the span of over a month, a 
truly unprecedented rate, even faster than those fleeing Mosul, 
Iraq, or South Sudan over the past year. I don't use the term 
``unprecedented'' lightly, but it is fitting in this scenario. 
Given the enormity of this influx, stark challenges remain to 
adequately respond. The people fleeing to Bangladesh arrive 
with just what they could carry. They are in immediate need of 
safe drinking water, of sanitation facilities, of emergency 
food assistance, shelter, healthcare, nutrition, and protection 
services. And poor conditions in these displacement sites 
increase the risk of disease and outbreaks.
    USAID's Office of Food For Peace has contributed $7 million 
to the World Food Program to provide lifesaving food 
assistance. In addition, USAID is supporting essential 
coordination efforts needed to manage the massive influx and 
for the immediate scaleup in concert with our state partners. 
We also applaud the Government of Bangladesh's generosity in 
responding to this severe humanitarian crisis, and we recognize 
that the communities are stretching their own scarce resources 
to take in their neighbors. We are committed to supporting them 
as well.
    In conclusion, the latest violence and continued conflict 
in Rakhine State has exacerbated the existing human rights and 
humanitarian crisis impacting the lives of thousands. We must 
be honest and forthright in our assessment of the situation and 
clear on what we expect as humanitarians and as Americans. We 
shall remain resolute in our efforts to meet the needs of the 
Rohingya and affected communities in Burma and Bangladesh, and 
we call on all stakeholders to end the violence and seek a 
lasting resolution to the conflict.
    Thank you.
    [The prepared statement of Ms. Somvongsiri follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                              ----------                              

    Chairman Royce. Thank you, Kate.
    This was always going to be a difficult transition for 
Burma to a more democratic state from the military control, 
especially given the tripwires of all the different ethnic 
groups inside Burma. But the most injurious decision, I think, 
that has been made by the military has been to restrict access 
of the United Nations to these areas like Rakhine State. 
Because what that does is that when you have a situation like 
the attack of the Arakan Rohingya Salvation Army, this fringe 
group, and they launch an attack--you had 10 police officers 
killed in that attack, and many of the attackers killed as 
well--that then gives the excuse for the local militia that is 
trained and focused along ethnic lines to unleash their 
violence, and in this case, with the full support, apparently, 
of the military in Myanmar.
    So you end up with a circumstance here, without eyes or 
ears on the ground, where there is no check to it. And had 
these arrangements originally allowed in times of stress like 
this, the positioning, the continued position of U.N. personnel 
and Red Cross and NGOs up in Rakhine State, at least you would 
have observers on the ground that would have tempered--I mean, 
the information would have got out a lot sooner and there would 
be direct evidence of it, and it would filter across Burma. All 
of that is being locked out.
    And so, Mr. Murphy, you mentioned that you went up there 
and you had these conversations. But when you say to the 
military government, right now, can we bring the United Nations 
in here, can we bring the Red Cross in here and start 
addressing these issues in these specific villages, what is the 
response? I understand the response is, well, everybody is 
going to be allowed to come back to their villages. Where is 
the evidence that any of that is true? Where is the evidence 
that we have cleared the way with those who we have discussed 
this with that are going to allow them to have access for U.N. 
and NGOs? Has it happened yet anywhere in Rakhine?
    Mr. Murphy. Mr. Chairman, I would agree with you that it is 
a significant mistake on the part of Burmese stakeholders to 
prohibit the U.N. agencies to have access to northern Rakhine 
State. Worse, I would point out, that early in this crisis, 
military figures suggested somehow that U.N. agencies were 
aiding and abetting militant attackers. That was false. We 
called them out on that. That has since been corrected. But it 
created damage and increased tensions locally.
    We have told them that they can't do this alone. They need 
the help of agencies to scale up the kind of assistance that is 
needed. The U.N. agencies that have experience in this part of 
the country are on the ground and poised to operate.
    Aung San Suu Kyi did agree publicly to call for 
international help and assistance. We are urging that they take 
advantage of that by inviting the U.N.----
    Chairman Royce. So to clarify this, although you had these 
discussions, the reality is that unless you personally lead 
these NGOs back in there and the U.N. back in there, I mean, 
they are willing to tell us that, yes, this is what they are 
going to do, but those are just words. You actually cannot get 
up there into Rakhine State to see these villages. We can't get 
NGOs up there, right? You want to clarify this point?
    Mr. Murphy. Mr. Chairman, there actually has been some 
small signs of progress in recent days. The Myanmar authorities 
are working with the Red Cross family of organizations. And 
just this week, Red Cross agencies have gained access to 
northern Rakhine State. There is some humanitarian assistance 
being delivered. It is not adequate. We are encouraging this to 
be scaled up with the kind of partners, World Food Program, the 
U.N. family of agencies, that have the experience to meet all 
of the needs.
    It is a very difficult environment right now for a variety 
of reasons for these international organizations. I saw that 
firsthand. While I was in Sittwe, the capital of Rakhine State, 
there was a Red Cross shipment of supplies. Locals heard about 
this and came out and began attacking that Red Cross shipment.
    Now, local security authorities put down the attack, but 
this is the environment. There are local populations who 
perceive all of the assistance is going to the Rohingya and 
their own needs are not being met. That is inaccurate. That is 
a result of a lot of misinformation and a complicated 
longstanding history of discrimination for all ethnic 
populations in the state. Therefore, we need to work with many 
stakeholders, not just the central government authorities and 
the security forces, but local leaders. And that is who I met 
with while I was in Rakhine. It is in their own interest to 
help facilitate the access of humanitarian assistance.
    Chairman Royce. I have met with Kofi Annan in the past, and 
we all understand his Advisory Commission on Rakhine State that 
he chaired and the recommendations he made. But the ones that 
would seem particularly essential at this moment, besides the 
humanitarian assistance, obviously, being able to get to the 
people we want it directed at, is to ensure that the violators 
of human rights be held accountable. I think there has to be 
some understanding that there will be an attempt to trace down 
those who have committed these human rights atrocities, to 
strengthen bilateral ties between Myanmar and Bangladesh--very 
important at this moment--to train security forces deployed in 
Rakhine State.
    And I think this is an added point that we are going to 
have to address so that, in the future, there is some kind of 
effort in this training to ensure those verified as citizens 
enjoy the benefits, rights, and freedoms associated with 
citizenship there. And that is going to require us making that 
a component of this solution. To investigate and map existing 
restrictions on movement so that that is changed, and the 
government should role out comprehensive birth registration, an 
ongoing campaign to make sure that girls and boys are 
registered at birth so that they are recognized that they have 
full citizenship rights. And the government should roll out a 
comprehensive strategy to close all IDP camps in Rakhine. That, 
I would say, is essential.
    I am going to go to Mr. Engel for his question. We have a 
15-minute vote, and the subcommittee chairman is voting right 
now, and will take the chair while I vote.
    So, Mr. Engel.
    Mr. Engel. Thank you, Mr. Chairman.
    I ask unanimous consent to enter into the record two 
documents. The first is a report prepared by Amnesty 
International detailing their research and documentation of 
this crisis. The second is a bipartisan letter on the U.S. 
response to this crisis sent on September 28 to Secretary 
Tillerson and USAID Administrator Green from Senators McCain, 
Cardin, and 20 of our colleagues in the Senate. So I ask 
unanimous consent to have those two entered in.
    Chairman Royce. Without objection.
    Mr. Engel. Thank you.
    Mr. Murphy, let me start with you. There is ample evidence 
and satellite imagery and eyewitness accounts that Burmese 
military and security forces have been carrying out an 
intentional, systematic policy to drive Rohingya from their 
homes in Burma and to burn their villages to the ground. 
Medical professionals working in Bangladesh report hundreds of 
men, women, and children being treated for gunshot wounds 
because the Burmese military and security forces have opened 
fire on them as they flee. Senior United Nations officials have 
called this a textbook case of ethnic cleansing.
    The commander-in-chief of the Burmese military, Min Aung 
Hlaing, said there is no oppression or intimidation against the 
Muslim minority, and everything he says is within the framework 
of the law. He also said the Bengali problem was a longstanding 
one, which has become an unfinished job. So let me ask you, are 
the Burmese military and security forces responsible for 
violence and intimidation of the Rohingya in Burma, and do 
these actions constitute ethnic cleansing, in your opinion?
    Mr. Murphy. Thank you very much, Ranking Member Engel. The 
horrific actions that have taken place in northern Rakhine 
State are beyond troubling. This is a tragedy of epic 
proportions. And the security forces there in northern Rakhine 
State bear considerable responsibility for what we have called 
a disproportionate response.
    I think it is important to note that there are other 
contributors to violence in this area. There are the militant 
attacks that took place on August 25 by individuals who claim 
responsibility for attacks that took place the year prior. 
There is also local vigilante action on the part of citizens 
and others. And these militants, according to very credible 
reports, are exacting violence on some of their own population.
    This is a cauldron of complexities. What has taken place is 
absolutely horrific. The Secretary of State said that it has 
been characterized by many as ethnic cleansing. Ambassador 
Haley in New York said what has taken place appears to be a 
sustained campaign to cleanse the country of an ethnic 
minority.
    There are unknowns. There are populations that obviously 
have moved in great numbers. There are other populations that 
haven't moved. That is why we are asking for full access of 
media, humanitarian organizations, all steps to stop the 
violence.
    Let me also point out, Mr. Engel, to another action. The 
United States, earlier this year, helped form a U.N. fact-
finding mission. We are asking authorities in Burma to support 
and cooperate with that mission so that there can be full 
disclosure of what has transpired, not just in Rakhine State, 
but I hasten to point out, there is conflict elsewhere in 
Burma, longstanding conflict currently ongoing in the northeast 
in Shan and Kachin states. But Burma is a country that has been 
at war with itself since the 1940s, since independence. And the 
current government is struggling with these sorts of conflicts 
and refugees and displaced persons.
    We have talked about the displacement inside Rakhine State, 
potentially hundreds of thousands. There are hundreds of 
thousands of displaced individuals elsewhere in the country as 
well.
    You mentioned Min Aung Hlaing. Yes, as commander of the 
armed forces, he has enormous responsibility to stop the 
violence, to act in a proper manner with the security threats 
they believe they face. He is not the only stakeholder. We need 
actions from the government, from local Rakhine officials, and 
Burmese citizens as well.
    Mr. Engel. So you would agree with me, then, that this is 
ethnic cleansing?
    Mr. Murphy. Mr. Engel, I am pointing to our members of the 
Cabinet who have pointed to voices and evidence that would 
suggest that there may be ethnic cleansing. I would say what is 
more germane, what is more important is the actual humanitarian 
crisis: Displaced persons, violence that hasn't stopped. That 
is our most pressing focus. There are mechanisms, there are 
bodies who are looking at what best to call this, but it is, at 
the end of the day, a human tragedy. And we want to do 
everything to stop it.
    Chairman Royce. Would the gentleman yield?
    Mr. Engel. Certainly.
    Chairman Royce. Just for the record, myself and Mr. Engel, 
this committee, we identify this as full-fledged ethnic 
cleansing.
    Mr. Engel. Thank you. Thank you, Mr. Chairman.
    What are we doing right now to hold the military 
accountable? Do you think that reimposition of targeted 
sanctions against senior military leadership or businesses that 
generate funds for the military is appropriate?
    And let me say, as a first step, I would encourage the 
administration to immediately stop issuing JADE Act waivers, 
which allow members of the Burmese military and their families 
to come to the United States, at least until such time as 
violence stops and humanitarian access is restored.
    Mr. Murphy. Congressman, thank you. We are exploring all 
options available to us to effect change inside this country, 
with a focus on the armed forces. I think it is important to 
point out that we have in place already a substantial range of 
restrictions on the military. Our engagement is virtually 
nonexistent. There is no training. Assistance is prohibited. 
That reflects the fact that the transition to democracy is not 
complete.
    Democracy has not been fully consolidated. We have talked 
about the expansive authorities that the security forces have 
over their own armed forces, three key ministries, one of the 
vice presidencies in the country. They are outside civilian 
control, particularly in this part of the country. We want to 
bring about accountability. There are ample evidence and 
reports of abuses and allegations. We will explore further 
tools.
    The JADE Act, which Congress put into place in 2008, 
remains very active. There are visa restrictions on all senior 
military leaders and their family members. The waivers that you 
refer to, Mr. Engel, are very sparingly and very rarely 
applied, only in the cases where it is in the U.S. interest. We 
are examining that very closely, not considering any expansion. 
For the time being, the JADE Act holds and those restrictions 
remain in place.
    Chairman Royce. I think that one of the issues is going to 
be, can we get the United Nations back more engaged in Burma, 
and can the U.N. then be the conduit to get the Red Cross and 
to get NGO groups back into Rakhine State?
    What is the prospect at the United Nations that our 
Ambassador could work with the Security Council, lay the 
foundation for a more robust presence? The very criteria that I 
just laid out that Kofi Annan helped develop in consultation 
while in Burma--he had been invited in and worked with the 
Council on Aung San Suu Kyi on this issue. So there is this 
possibility of the U.N. being the mediator or helping even in 
this role of setting up the dialogues between different ethnic 
groups up in Rakhine State. If the international body can come 
in, would that give us considerable leverage to get to some of 
these objectives?
    Mr. Murphy. Mr. Chairman, you rightly point out the 
critical, important role of the United Nations. And that is 
important in a variety of avenues of effort: The humanitarian 
assistance that you refer to, also the actions that potentially 
the Security Council could take. And let me point out the U.N. 
bodies that deal with human rights, like the Human Rights 
Council.
    I also want to offer that our Ambassador in Burma, 
Ambassador Scot Marciel, and his team have been relentless on 
this and many lines of effort to address this crisis. They are 
working with the government to encourage an increased role for 
the United Nations. In fact, there is currently a U.N. presence 
in Burma on the ground. In Rakhine State itself, they are 
poised to activate their humanitarian operations.
    We have encouraged the government to invite senior U.N. 
figures to visit Burma, engage, discuss possible ways forward. 
And as the chairman pointed out, in New York, our Ambassador 
and team are quite engaged at the Security Council in forging a 
way forward for the U.N. I just want to emphasize, there are 
many lines of action for the U.N.--humanitarian, 
accountability, human rights. And our press is on all of those 
fronts and encouraging cooperation inside Burma with these 
entities.
    Mr. Yoho [presiding]. Does anybody else want to comment on 
that?
    Ambassador Storella. I would like to add that our efforts 
at pushing for access have not been without any success 
whatsoever. Initially, the Government in Burma had said that it 
would allow humanitarian assistance to pass only through its 
hands, and our Ambassador in Burma and others insisted that 
that would not be possible for us. Eventually, they agreed to 
the Red Cross Movement being a source of assistance directly in 
the region. And with the assistance provided through the 
Department of State, the Red Cross Movement is staffing up from 
20 in northern Rakhine State to, we hope, 200 soon to increase 
access.
    Access has also come in the way of, most recently, movement 
to permit one NGO from the United Kingdom to be present. And I 
would note that, on October 2, our Ambassador, Scot Marciel, 
was able to visit Rakhine State to see what was going on with 
his own eyes and saw some of the destruction. So we will keep 
pushing. And I want to guarantee to you that we will support 
these agencies that are active, and we will keep supporting 
them diplomatically on every single front.
    Mr. Yoho. I appreciate your work in doing that.
    And, again, I want to give a shout-out to the Ambassador of 
Bangladesh, Ambassador Ziauddin. Thank you and your country for 
what you have done and are continuing to do, and we look 
forward to partnering up with you.
    You know, too many times, we see these disturbing things 
going on around the world. And this is the 21st century, and I 
know we have said over and over again, ``Never again.'' Never 
again will we see these atrocities, whether it is in Nazi 
Germany, whether it is in Rwanda, any other place where we see 
genocide. And we as humans, to tolerate this is intolerable. 
And we have to crack down, and we have to find an effective way 
to bring partners to this.
    And one of my questions was, why do Russia and China feel 
that it is in their strategic interest to provide diplomatic 
cover for the Burmese military? Are they afraid of another 
democracy forming? What are your thoughts on that?
    We will start with you, Mr. Murphy. Go ahead.
    Mr. Murphy. Thank you, Congressman Yoho.
    I could not agree with you more that this is a human 
tragedy, and we don't want to see history repeat itself. Inside 
Burma, the plight of the Rohingya people is a longstanding 
challenge, decades and decades of repression and 
discrimination. The new government there is 18 months in the 
making and inherited this problem. It needs to do more. We have 
called on the government to provide moral leadership.
    There are some efforts underway. As the chairman cited, the 
Annan commission provides an important potential path forward. 
Eighty-eight recommendations. This was a commission formed by 
the Government of Burma with expertise from outside and inside 
the country. And it deals with some of the most sensitive, 
politically challenged issues, including citizenship for the 
Rohingya, important development efforts, rights, and 
cooperation with neighbors, including Bangladesh.
    Mr. Yoho. Let me interrupt you there, because I just read a 
report, I think it was a day or 2 ago, where the Burma 
Government said they would allow people to come back in. And I 
know there is proof of citizenship and all that. Have they 
worked through that, or are they at a point where they are 
like, you know what, we need to take these people back?
    And then another question, and this will probably be for 
you, Ambassador Storella. If we can't rely on the Security 
Council at the U.N., the obvious question that comes to me is, 
number one, is it efficient or effective? And the obvious 
answer is no. So what do we need to do, from the influence of 
the United States, to say, ``You guys need to get your act 
together. These are crimes against humanity, and for us to 
continue to be involved with you, you need to tighten up your 
act, and let's get the results we want on the ground and stop 
these things''?
    So if you guys could respond to that.
    Mr. Murphy. Congressman Yoho, on returns, a couple of 
things to offer. First, we have stated very clearly the right 
to safe, voluntary, dignified return must be an absolute. Aung 
San Suu Kyi herself stated that those who have fled will be 
allowed to return to their homes.
    A couple of things have taken place. We now need to see 
implementation.
    The Burmese, earlier this week, sent a senior minister, 
Kyaw Tin Swe, to Dhaka to begin discussions with Bangladesh 
counterparts. They, together, formed a joint working committee 
on repatriation modalities. That is important, and we want to 
support that.
    Inside the country, the government has formed a committee 
to implement the recommendations of the Annan commission, the 
recommendations in that report.
    This is good. Now we need to see action.
    And there are other stakeholders. This is not just a matter 
of the civilian government, dictating refugees shall return. 
There are other stakeholders like the security forces, like 
local authorities in Rakhine State. There is not one single 
point of authority in the country. So, you know, it is very 
complex in that regard.
    Mr. Yoho. Well, and that leads to, who is going to monitor 
and who is going to police it outside of the Burmese 
Government?
    Let me have Ambassador Storella--and, Ms. Somvongsiri, I 
will ask you something if I have a moment. I guess I do.
    Go ahead.
    Ambassador Storella. So thank you very much, Mr. Yoho, for 
that question.
    Indeed, we face obstacles in the actions that we want to 
take. I think that what is most important for us in dealing 
with the U.N. system and international organizations is that we 
look at all the tools that we have at our disposal and try to 
use all the tools as best as we can.
    It is noteworthy that the U.N. Human Rights Council, on 
which I once represented the United States, has extended the 
mandate for action in Burma. We should work with that. The 88 
recommendations from the Annan Commission report have been 
accepted by the Burmese Government and by the Bangladesh 
Government. We should look at each one of those and determine 
which ones can be used best to press our case to provide for 
access and accountability.
    I think that we also have to continue to use our voice 
publicly, which our senior leadership has in New York and 
Washington and also in Burma itself. And we should continue 
that.
    Finally, I think that we have to keep demonstrating to the 
Burmese leadership that it is in their interest to settle the 
issues inside their country so the country can get on with 
peaceful development and a better future for its own people. As 
you know, that is not so easy to do.
    Mr. Yoho. It is not. And we had a hearing on this last 
week, and it was disheartening because we brought up some of 
these issues.
    And, Ms. Somvongsiri, since you were on the Thai-Burma 
border and you lived there, what are the things that need to 
change? You know, when we had the hearing last week, it was 
recommended that the U.N. needs to study this and do a report. 
In the meantime, we don't have time for that. We have people 
dying on the ground, being run out, genocide happening today. 
We don't have time for a report.
    What do we need to change in the narrative or in the 
directive of the U.N. to intervene, go in there and monitor it 
and bring in the appropriate world nations to help bring 
stability to this and stop this nonsense?
    Ms. Somvongsiri. Thank you, sir, for that important 
question and for that point.
    The main thing, from USAID's perspective, that needs to 
change immediately is humanitarian access. Until and unless we 
are able to get into northern Rakhine State to provide 
lifesaving support as well as to be able to have media to come 
in to actually see and assess the situation, there is not much, 
from a development assistance perspective, that we can do until 
that happens.
    As the situation stands right now, as we have heard, the 
Government of Burma and the military are in northern Rakhine, 
and the Red Cross Movement has been granted permission. But, 
aside from that, none of the U.N. agencies, none of the aid 
partners are in there. We are in central Rakhine State and are 
able to restore some support there, but it is very limited. So 
we call for unfettered access. That is an obvious----
    Mr. Yoho. All right. I thank you.
    I am going to turn now to Mr. Dana Rohrabacher from 
California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. And I 
say ``Mr. Chairman'' because you are the subcommittee chairman 
and had a great hearing on this issue just a few days ago. So I 
would like to congratulate you, and also to suggest that I 
think that Chairman Royce and Ranking Member Eliot Engel, they 
have done a good job in making sure that this issue is high on 
our priority. So the word is out around the world that we are 
paying attention. Perhaps more than anything else, that can 
have a positive impact.
    And this message is especially important for those people 
in the Muslim world who are being told that we are their enemy. 
And we have to let good people know all over the world, 
whatever their religion is, that we are on the side of ordinary 
people and their rights to live decent lives without being 
murdered and raped and the type of things that these poor 
people are suffering who are the subject of the hearing today.
    This does remind me--and I wasn't here for Eliot's remarks, 
but Eliot and I were very involved when a similar situation was 
in Kosovo, where you had Muslims who were being--I say 
obliterated, they were being ethnically cleansed, and, at that 
time, it was by the Serbs. Let me just say that, from what I 
see here, the Serbs at that time were acting very similarly to 
what we see happening in Burma.
    And I spent a lot of time working with people in Burma who 
were under attack 20, 30 years ago. So this vicious activity by 
the Burmese Government shouldn't be looked at just as something 
aimed at this Muslim people. The fact is they are conducting 
themselves in an absolutely unacceptable, criminal way with the 
Kachins, the Chins, the Karens and the Karenni who are 
Christians, the Shan.
    The central government in Burma and the Burmese Army, which 
used to call themselves--the administration before Aung San Suu 
Kyi was called the SLORC, which fit what was going on there. 
This has got to stop. And I don't think we should look at this 
just as the attack on these people, which is unacceptable, but 
we should look at it as an example of the behavior of the 
Burmese Government and hold them accountable.
    I was a big supporter of Aung San Suu Kyi. We are expecting 
more from her than what is happening. And the fact is, perhaps 
she is unable to do more. But we must mobilize public opinion--
that is what this hearing is about--mobilize public opinion 
when such atrocities are being committed by the Burmese 
Government.
    Okay, so I have castigated the Burmese Government, but I 
want to ask you about the Bangladesh Government now, because I 
have had reports that significant amounts of money have been 
donated by oil-rich countries to Bangladesh to deal with these 
people but that that aid has somewhat disappeared. Is that 
correct?
    Mr. Murphy. Congressman Rohrabacher, if I first could thank 
you for your longstanding interest in Burma. We have had the 
opportunity to discuss many times over the years the challenges 
there, and these discussions are always quite fruitful.
    Before we talk about Bangladesh, I want to acknowledge the 
accuracy of what you have had to offer, say, about many 
suffering people throughout the country of Burma. And, indeed, 
what I would add to the mix: Inside complicated Rakhine State 
itself, on display is the terrible, terrible treatment of the 
Rohingya people.
    Mr. Rohrabacher. That is right.
    Mr. Murphy. There are other minorities there, as well, who 
feel aggrieved, most notably the ethnic Rakhine, who happen to 
be Buddhist but feel over many, many years they have been 
discriminated and repressed by central authorities and 
successive military governments.
    That complicates the environment to facilitate humanitarian 
assistance and give the Rohingya the attention they need. We 
have to think about the other ethnic minorities there, too, 
that are in need, are part of the problem and need to be part 
of the solution.
    And, indeed, we call on all Burmese people who have 
suffered through the struggle for independence, the 50 years of 
authoritarian rule, have suffered discrimination, repression, 
neglect, underdevelopment. We ask them to find in their own 
hearts compassion for fellow human beings who need basic 
dignity--apart from any political, challenging questions, need 
respect, dignity, and safety.
    With regards to Bangladesh, I have been in communications 
with Bangladesh diplomats here in Washington. We are very, very 
grateful for the incredible safe haven that country has 
provided, not only in response to the current crisis--over \1/
2\ million refugees--but substantial populations who have 
crossed, following previous crises, into Bangladesh.
    I will defer to my colleagues to talk about the kind of 
assistance, but what we are focusing on is the much-needed 
communication between Burma and Bangladesh. We have seen some 
movement on that this week. We understand that a Bangladesh 
senior official planned some travel to Naypyidaw, the capital 
of Burma, for further discussions. This is good. The two 
countries have much in common, many challenges they need to 
overcome--most importantly, the safe path to return of refugees 
to their original homes.
    Mr. Rohrabacher. Uh-huh.
    Mr. Murphy. And there was an earlier question about 
citizenship. Our understanding from the authorities in Burma is 
that citizenship is not a requirement for return. That is a 
separate process--verification and path to citizenship. There 
will need to be a process to identify where they came from, 
when they crossed. But those discussions are now underway, and 
we are going to focus on that very, very closely.
    Mr. Rohrabacher. Well, let's note that many people in 
Congress, when we are dealing with a limited budget, some of us 
who do not believe in economy-building or nation-building as a 
target for foreign aid, we all believe that, as human beings 
and as on this planet, the American people do have 
responsibility toward their fellow human beings in cases of 
emergency and crisis.
    Now, this is not a natural crisis. This is a manmade 
crisis, and it is an emergency. So we are behind these efforts.
    But, again, just one question. I am sorry to put you on the 
spot, Mr. Ambassador, but I have been told that money that was 
donated by very wealthy, oil-producing, Muslim countries, that 
a lot of it has not gone to these folks who are suffering.
    I would ask our lady from the USAID.
    Ms. Somvongsiri. Thank you, sir, for that question on the 
issue of support to Bangladesh.
    In addition to our U.S. support that we have been 
discussing today, I would note that a number of other countries 
have also stepped up their efforts. It is not just the U.S. 
that has seized with this issue. So the United Kingdom, for 
example, has pledged----
    Mr. Rohrabacher. Okay. But is there any indication that 
that aid has been--that corruption is getting in the way of 
helping these people?
    Ms. Somvongsiri. There is indication that some of the aid 
is going to much-needed lifesaving support. Of the corruption 
issue, the issue you speak of specifically, I don't have 
knowledge of that right now, but we can look into that and get 
back to you on that.
    Mr. Rohrabacher. Okay. Thank you.
    And thank you, Mr. Chairman.
    Chairman Royce [presiding]. Thank you, Mr. Rohrabacher.
    We go now to Mr. Joaquin Castro of Texas.
    Mr. Castro. Thank you, Chairman. And thank all of you for 
your testimony today. And I apologize if I retread any ground 
that we have covered already. I was at my other committee 
hearing.
    But, as you know, this is an incredible time, a very 
tumultuous time for dispossessed peoples in the world. Europe 
is still facing its largest migration since World War II, 
mostly because of the Syrian conflict. But, also, in Southeast 
Asia, the Rohingya have been dispossessed.
    So humanitarian organizations estimate that the cost to 
help them would be about $434 million. The United States, I 
know, in September, I believe, committed about $32 million. My 
question is, as far as you know, what other nations are helping 
or groups are helping? And, also, does the United States plan 
any further aid?
    Ambassador Storella. Congressman Castro, thank you very 
much for that question. And I would like to start by saying 
that the magnitude of this crisis, as you have indicated, is so 
large that it is going to require many different hands to 
support the needs that are so evident and so urgent right now.
    The United States did indeed provide an additional $32 
million on September 20. On September 28, USAID, through the 
Office of Food for Peace, announced an additional $6 million in 
assistance. And, on that same day, PRM at the Department of 
State announced an additional--well, we didn't announce, we 
simply provided an additional $2.1 million. That is the end of 
fiscal year 2017.
    We are going to review our funding in fiscal year 2018, but 
we will fund against appeals themselves. The indication of $434 
million in needs is a preliminary statement by the United 
Nations. We will be reacting to and examining actual appeals by 
different organizations to respond to them.
    But I do want to emphasize, as my colleague from USAID 
mentioned, we are not the only ones and we should not be the 
only ones to respond to this tragedy. She mentioned that the 
United Kingdom has already stepped forward, but I----
    Mr. Castro. And how much have they put up?
    Ms. Somvongsiri. $33.5 million.
    Ambassador Storella. $33.5 million.
    Mr. Castro. Any other European nations that have stepped 
forward?
    Ambassador Storella. Yes. Denmark provided $3.1 million; 
Australia, $4 million; the European Union, 3 million euros; 
Canada, $2.1 million; South Korea, $1.5 million; Japan, $4 
million; and Saudi Arabia, $15 million.
    That is a beginning. The United Nations Humanitarian 
Coordinator, Mr. Lowcock, announced yesterday that there will 
be, in all likelihood, a pledging conference on October 23. And 
that may take place in Geneva, but, actually, we don't have the 
full details on that. I don't know that we will be ready to 
pledge additional assistance at that time, but we will 
certainly be ready to work with other governments to ensure 
that others come forward to help carry this burden.
    Mr. Castro. Thank you.
    Ambassador Storella. Thank you.
    Mr. Castro. And--yes?
    Mr. Murphy. If I could, Representative Castro, first, I 
want to thank you for your leadership with the ASEAN Caucus----
    Mr. Castro. Thank you.
    Mr. Murphy [continuing]. Here in Congress. A very important 
entity in our relationship there at 40 years is very 
productive.
    But that gives me the opportunity to talk about the 
neighborhood. In my statement, I said that if this crisis is 
not managed and the violence brought to an end, it can have an 
impact on the neighborhood. Under military regimes, Burma 
exported refugees, illicit narcotics, trafficking victims. We 
don't want to revert to that. And we have been messaging with 
the neighborhood that they need to focus on this crisis so it 
doesn't spread throughout the region.
    There is a growing potential for terrorism of an 
international flavor in Burma. That would spell bad news for 
the neighborhood.
    So we are working with ASEAN. ASEAN has activated its ASEAN 
humanitarian assistance program. And I believe it is only the 
second time--they call it AHA--only the second time they have 
activated this mechanism as a result of a non-natural disaster 
crisis. So they are providing assistance.
    We are also encouraging ASEAN to communicate, to encourage 
the stakeholders inside Burma to take the actions needed to end 
the violence, open up humanitarian assistance for international 
organizations, and implement the Kofi Annan recommendations. We 
believe the voice, the collective voice, of ASEAN could be 
influential in this situation.
    Mr. Castro. And I probably have time for one more question. 
Has the United States been clear that this is ethnic cleansing? 
Has the State Department taken that position? Or how would you 
all define it, at this point?
    Mr. Murphy. Mr Castro, I refer to my seniors in the U.S. 
Government, the Secretary of State, who said it has been 
characterized by many as ethnic cleansing. That must stop. Our 
Ambassador to the United Nations, Ambassador Haley, stated that 
this is a brutal, sustained campaign that appears to be an 
effort to cleanse the country of an ethnic minority.
    There are separate processes underway examining the avenue 
of accountability. What we do know, regardless of discussions 
about what to call it, is that it is a human tragedy. Half a 
million people on the move across the border, several hundred 
thousands displaced internally. And actions need to be taken 
now to stop the violence, deliver humanitarian assistance, as 
well as the efforts to hold accountable those who have 
perpetuated abuses and violations of international standards.
    Mr. Castro. Will you permit me one more comment?
    Chairman Royce. I will, Mr. Castro.
    Mr. Castro. Thank you, Chairman.
    Well, thank you all for your efforts. Thank you for the 
initial assistance to this problem. And I hope that we won't 
lose sight of this, even though it is in a faraway place in the 
world from the United States. The pace at which news and 
devastating news hits us now causes whiplash, almost, for not 
only Americans but also for those of us in Congress as we deal 
with human tragedies. So, you know, we will keep working with 
you on this.
    Chairman Royce. Would the gentleman yield?
    Mr. Castro. Sure.
    Chairman Royce. The other thing I thought I would clarify 
is the $32 million is the latest tranche for this fiscal year. 
The total is $104 million for Burma, the vast majority of that 
for the Rohingya situation. But an additional funding we have 
for regional humanitarian assistance, some money that we don't 
break out by country. So it would be in excess of the $104 
million so far.
    But it is a good point, that we will stay on top of this. 
And I just----
    Mr. Castro. Thank you, Chairman.
    Chairman Royce [continuing]. Mention that for the record.
    We go now to Ann Wagner, Ambassador Wagner, of Missouri.
    Mrs. Wagner. Thank you, Mr. Chairman. I will be brief here. 
I have to run to another Financial Services hearing.
    But I want to first acknowledge the Bangladesh Embassy for 
the work that they are doing to give refuge to Rohingya. I 
thank them very, very much.
    I am devastated by the ethnic cleansing of Rohingya Muslims 
in Burma. For over 60 years, the Burmese Government has 
persecuted religious and ethnic minorities, from Christians in 
Kachin to Muslims in Rakhine State. We are, in part, to blame 
for not holding the Burmese Government and military accountable 
for their actions, which we knew about full well as we lifted 
the sanctions.
    Ambassador Storella, you indicated in your written 
statement that you are supporting the elected government's 
efforts, including the Rakhine Advisory Commission. I 
understand the political expediency of supporting the 
Commission, but Burma has clearly abdicated its responsibility 
to protect. And the U.S. should officially recognize mass-
atrocity crimes against Rohingya Muslims and unequivocally 
support an independent investigation. Downplaying human rights 
violations and impunity has not resulted in national 
reconciliation. It has perpetuated more conflict and a lack of 
accountability.
    Ambassador Storella and Assistant Secretary Murphy, when 
will the United States push for an independent investigation 
into these mass-atrocity crimes?
    Mr. Murphy. Thank you very much, Congresswoman.
    And I agree with your characterization of this longstanding 
challenge that is abhorrent and now on full display. But for 
those of us who have followed the country for a long time, we 
have seen big population movements in the past--1970s, 1990s, 
crisis again in 2012, last year as well. Irregular migration in 
2015 caused a crisis for the entire region----
    Mrs. Wagner. Independent investigations. Please get to the 
point.
    Mr. Murphy. We are supporting, Congresswoman, as a 
cosponsor at the Human Rights Council, a U.N. fact-finding 
mission that was recently extended, the mandate for this 
program, to look closely at the abuses, gather information, and 
make determinations on the way forward.
    I hasten to point out, there are not just challenges in 
Rakhine State; there is ongoing, active conflict elsewhere in 
the country----
    Mrs. Wagner. Correct.
    Mr. Murphy [continuing]. In particular, in Kachin and Shan 
States. Those conflicts need to come to an end.
    There are many actors inside the country, I also want to 
point out, in terms of pressure points. There is the civilian 
government. There are the security forces. There are local 
ethnic leaders. There is the broad population.
    Mrs. Wagner. Why isn't--and reclaiming my time, and I have 
a short amount here. Why isn't the U.S. doing its own 
independent investigation? Why are we not doing that?
    Mr. Murphy. We have many efforts underway, first and 
foremost, to bring this immediate crisis and suffering to an 
end. We are indeed looking at tracks for accountability. As we 
stated earlier----
    Mrs. Wagner. Okay.
    Mr. Murphy [continuing]. We are attempting to gain access--
--
    Mrs. Wagner. I am going to reclaim my time----
    Mr. Murphy [continuing]. To northern Rakhine State----
    Mrs. Wagner [continuing]. With apologies. We have been 
looking at this while people have been suffering for 60 years.
    Ambassador Storella, some countries are hesitant to 
officially call survivors in Bangladesh refugees. How do we 
address the needs of Rohingya who have no home to return to? 
How would you classify these stateless people who were forced 
to leave their country, running from likely genocide?
    Ambassador Storella. Congresswoman, thank you very much for 
that question. And I would like to say that right now there are 
1 million Rohingya residing inside Bangladesh. We have all 
recognized the incredible generosity----
    Mrs. Wagner. Correct.
    Ambassador Storella [continuing]. Of the Government of 
Bangladesh and its people. It is perhaps more than there are 
Rohingya left in Burma at this time. We consider these people 
refugees. We think that they should come under the mandate of 
the UNHCR and the international legal instruments that apply to 
that.
    The United States has been very gratified to see that the 
Bangladesh Government has undertaken a registration process for 
the people who have crossed the border. This is something that 
at times has been controversial in the past. They are doing so 
now, with the assistance of the UNHCR. This will give us a 
record of who has come across the border, which will help us 
provide greater protection under international law for them.
    It is a slow process right now. I think that they are able 
to register right now, as they have just started the process, 
about 6,000 per day.
    This is going to help. And I think that it is important to 
recognize that the Government of Bangladesh has increased its 
cooperation with UNHCR under these circumstances----
    Mrs. Wagner. Thank you. Thank you.
    With the chair's indulgence, I have one last question.
    Chairman Royce. The gentlelady's time has expired.
    We go to Mr. Gerry Connolly of Virginia.
    Mrs. Wagner. I will submit it for the record. Thank you.
    Mr. Connolly. Thank you, Mr. Chairman.
    Following up on I think where my colleague Mrs. Wagner was 
leading, Mr. Murphy, I guess I don't understand your reluctance 
to call this what it is: Ethnic cleansing. I mean, you have 
used code, ``disproportionate response by the military,'' 
``other sources of violence,'' ``a culture of complexities.'' 
At least Nikki Haley admitted it appears to be ethnic 
cleansing.
    When 800,000 people of a particular ethnic background are 
living in a neighboring country because they have been forcibly 
removed from their villages, I would call that ethnic 
cleansing, you know, pretty clear and simple.
    What is your reluctance to call it what it is?
    Mr. Murphy. Thank you very much, Congressman Connolly. I 
appreciate your perspectives and concern about the situation, 
as we are deeply, deeply concerned by the human tragedy. And 
that is what it is.
    Mr. Connolly. Let's stipulate we both are concerned. We 
accept that. Why not call it ethnic cleansing? What is the 
nature of your reluctance, as a diplomat representing the State 
Department, to call it ethnic cleansing? Are you afraid you 
will offend the Burmese military? I mean, what is our concern?
    Mr. Murphy. No, there is no reluctance, Mr. Connolly, at 
all. I have referred to our senior officials, including 
Ambassador Haley and Secretary Tillerson, who have referred to 
what appears to many to be ethnic cleansing.
    The important thing now is action to end the violence----
    Mr. Connolly. I get that, Mr. Murphy. But, you know, I am 
an English lit major; words mean something. And you are still 
evidencing a reluctance to call it ethnic cleansing. My 
question to you is, why?
    Mr. Murphy. In part, the situation must be focused on the 
U.N. fact-finding mission. That is a deliberative process to 
look exactly at what has taken place----
    Mr. Connolly. Okay. So----
    Mr. Murphy [continuing]. Both there and elsewhere.
    Mr. Connolly. I am sorry. I am----
    Mr. Murphy. We are supportive----
    Mr. Connolly. I am worried about time. I am not trying to 
be rude, but I only have 3 more minutes, and you see the 
chairman is strict.
    So we are waiting for the U.N.?
    Mr. Murphy. No. That is a parallel process that we are 
strongly supporting.
    Mr. Connolly. So we don't care whether the U.N. finds it 
ethnic cleansing or not; we are free to call it what we think 
it is.
    Mr. Murphy. Absolutely. A human----
    Mr. Connolly. Well, then why don't you call it----
    Mr. Murphy [continuing]. Tragedy.
    Mr. Connolly. Then why don't you call it ethnic cleansing?
    Mr. Murphy. It is a human tragedy.
    Mr. Connolly. Mr. Murphy, do I look like a fool to you?
    Chairman Royce. Would the gentleman yield for a moment?
    Mr. Connolly. Yes, sir. Of course.
    Chairman Royce. Just to quote Ambassador Nikki Haley, who I 
have talked to at length on this issue and is speaking for the 
administration, I presume, on this issue, she says it is a 
``brutal, sustained campaign to cleanse the country of an 
ethnic minority.'' To cleanse the country of an ethnic 
minority.
    The U.N. is engaged in its assessment of the situation, but 
I would say that puts us out on the ledge of what I and Eliot 
Engel and us on the committee have named and called ethnic 
cleansing. We encourage everyone to use that term.
    But I just wanted to clarify Nikki Haley's----
    Mr. Connolly. Yeah. I thank the chair. And, apparently, 
that word hasn't gotten to the Deputy Assistant Secretary.
    Chairman Royce. He had used the quote earlier.
    Mr. Connolly. Sometimes we have to be careful, but when we 
are looking at the kind of tragedy we are looking at here, it 
seems to me speaking with clarity actually is an important tool 
of diplomacy, not fuzzifying it with other kinds of 
descriptions that clearly, deliberately are avoiding calling it 
what it is.
    By the way, I would ask the chair if he might just restore 
a little bit of my time.
    Chairman Royce. But of course.
    Mr. Connolly. I thank the chair.
    Okay. Let's see.
    Mr. Murphy, when Mr. Engel asked you about sanctions, you 
said, ``We are exploring all available options, and many 
restrictions remain in place, especially with respect to the 
armed forces.''
    Could you elaborate? Does that mean no military-to-military 
training, for example, or that military assistance directly is 
still on ice?
    Mr. Murphy. Yes, sir. What that means is there is a 
prohibition on assistance to the Burmese military. There is a 
broad set of visa restrictions that apply to senior military 
leaders and their families that remains active. There is very, 
very limited ability to engage with the Burmese military on 
issues like humanitarian assistance, human rights international 
standards, but that has been so nascent and almost negligible. 
But, primarily, this is not a normalized military-to-military 
relationship, by any stretch, and has not been for decades.
    Mr. Connolly. Yes. I agree with that.
    The military was driven to open itself to the outside world 
back in 2011 and came to some kind of uneasy peace with 
civilian government up to a point, allowing elections and Aung 
San Suu Kyi being the effective leader of the country--not by 
title, but she has it.
    What has liberated the military in this situation to feel 
that all of those restraints or all of those boundaries do not 
pertain and we are free to engage in this ethnic cleansing with 
such violence and effectiveness, actually?
    Mr. Murphy. Congressman, the transition that you referred 
to enjoyed the support of many in the international community, 
providing Burma perhaps with its first and best opportunity to 
address so many longstanding challenges. The transition to an 
elected government allowed the will of the people to be 
expressed.
    However, the armed forces designed and implemented the very 
constitution that forms the basis for government. That places a 
lot of limitations on this new government. The military accords 
full authority for its own security forces----
    Mr. Connolly. Mr. Murphy, I was in Burma a year ago. I met 
with the head of the military as well as Aung San Suu Kyi, and 
I absolutely take your point.
    But my question, really, though, is, in this time period 
until this, they have shown a certain restraint, a certain 
caution. There are also restraints on the civilian side. They 
know there are unwritten boundaries. But, in this case, all of 
that seems to have been pushed away, and there seems to be no 
sense of restraint by the military with respect to the 
Rohingya. Why do you think that is? It is out of character with 
how I think we would characterize the last 5 or 6 years of 
their behavior.
    Mr. Murphy. Congressman, I would say not entirely out of 
character, because there is ongoing conflict in northern Burma. 
At any point in time over the last 70 years, there has been 
active conflict somewhere between the----
    Mr. Connolly. Mr. Murphy, my time is up. But, look, all of 
that is true, but they haven't pushed \1/2\ million people into 
another country in such a limited timeframe. And I am asking 
you your assessment. Why do you think, at this moment, they 
kind of changed their behavior and really accelerated this in 
such enormous numbers and with such impunity?
    Mr. Murphy. Congressman, without explaining any 
understanding or condoning the actions, I can point to what the 
security forces say, what the narrative in the country is. They 
feel that they are under attack. The militant, coordinated 
assaults on August 25----
    Mr. Connolly. By the Rohingya.
    Mr. Murphy [continuing]. By Rohingya militants, a new 
organization that now claims responsibility for attacks as well 
in 2016, this has bumped up a level. They were coordinated. 
They resulted in deaths. This feeds a narrative popular in the 
country that the sovereignty of their country is under assault 
and they face a serious terrorism problem.
    They obviously have responded in a very disproportionate 
manner and have failed to protect civilian populations. 
Regardless of that threat, they have behaved in a way that has 
exacerbated the problem and the challenges.
    Mr. Connolly. Mr. Chairman, thank you for your indulgence.
    Chairman Royce. Thank you, Mr. Connolly.
    We go now to Tom Garrett of Virginia.
    Mr. Garrett. Thank you, Mr. Chairman.
    And thank you all for your testimony here today.
    It strikes me that, for the last probably 20 years, I have 
heard folks of a broad array of political stripes extol the 
virtues of Aung San Suu Kyi, the progress in Burma, et cetera. 
And that tool that is at our disposal that I think is 
infrequently used but oftentimes effective is that of shame.
    I wonder if any of you could elaborate on the potential to 
bring pressure on the Government of Burma to amend its 
behaviors by virtue of publicizing the realities on the ground 
as it relates to the Rohingya and essentially motivating Ms.--I 
don't know what the proper--Aung San Suu Kyi--I don't know 
whether it would be Ms. Suu Kyi--to compel different behavior 
by virtue of that tried-and-true, traditional tactic of shame.
    In other words, do you think it might help to shine light 
on the reality? What role could the United States take to that 
end, both in the global media world and in the United Nations 
and as an influencer of ASEAN and as a member of SEATO, et 
cetera? And it is wide open.
    Mr. Murphy, you can take a break if you want. You are also 
welcome to answer, but if you would like to catch your breath, 
you can.
    Ambassador Storella. Congressman, thank you very much for 
that question. I can answer from the humanitarian assistance 
perspective and will not try to cover the entire scope of your 
question. But I do want to say that it is extremely important 
to document what is going on, and it is extremely important to 
bear witness to what is going on.
    The Government of Bangladesh has accepted over 500,000 
people onto its territory. Our Ambassador in Dhaka, Marcia 
Bernicat, I spoke with her last night. And she immediately went 
to Cox's Bazar to check on the circumstances there. And there 
she brought the press with her. And she interviewed people, 
including women who had been subject to gender-based violence, 
to hear their stories, and she has related them.
    That is part of our humanitarian approach, but it also 
shines a light on what has happened, and it is very important 
for us to continue doing that.
    Thank you.
    Mr. Garrett. Oh, you can talk. I wasn't telling you not to 
talk. I just felt like you had kind of been raked across the 
coals there. And, candidly, to be fair, I know you don't 
single-handedly shape U.S. policy, but I am a little bit 
sympathetic to--mark this down, it is a red-letter day--to Mr. 
Connolly's line of questioning.
    But, yeah, go ahead and speak to it, please, sir. 
    Mr. Murphy. Thank you, Congressman. And I appreciate the 
perspective. What can we do? This is a source of frustration, 
and we are outraged by the human suffering.
    There are many stakeholders inside the country that need to 
take action. This is not a monolithic authority. There is the 
government. There are the security forces. There are local 
ethnic leaders inside Rakhine State. There is the broad 
population. All of them need to take actions.
    I would agree----
    Mr. Garrett. Let me interrupt you for a second. And, again, 
I am not trying to double down on beating up on you.
    It has been my experience, whether it is in Burma or it is 
in Central America or whether it is in Africa, that the local 
militias, et cetera, operate with a great deal more impunity 
when the government is willing to look the other way. 
Obviously, they continue to exist, even in contrivance to the 
government in many instances.
    But I think right now what we are seeing--what I understand 
is that they operate with impunity because the government 
either condones it or doesn't do anything to deter it.
    So, sorry. Go ahead.
    Mr. Murphy. I agree with your perspective, and I appreciate 
that. I think the fact that we herald the transition to a more 
democratic Burma does not absolve the government of criticism. 
And, indeed, as Ambassador Haley said in New York, we should 
shame Burma's leadership. We are looking for more.
    At the same time, there are figures who are attempting to 
do what has been unattempted, unprecedented for many, many 
decades--that is, to give Rakhine and the Rohingya attention, a 
path to citizenship, right now a path to return to their homes.
    We can't effect action from outside the country without 
action by stakeholders inside the country----
    Mr. Garrett. Let me interrupt you, because I have 10 
seconds, because you touched on something, and that is a path 
to return to their country.
    It is so frustrating--I know I am over; I am going to wrap 
up quickly--because I spent the better part of a year in a 
uniform in the Balkans, and we watched 6 million internally and 
externally, at least, displaced people from Iraq and Syria, and 
we see it here with Burmese Rohingya pushed into Bangladesh, 
and we always talk about creating circumstances where people 
can return to their homes, and they never--I mean, with small 
exceptions, they never do.
    So it is not directed at you; it is more of a frustration 
of the world that we live in and perhaps an implorement to find 
a better paradigm moving forward.
    Thank you.
    Chairman Royce. Thank you very, very much for your 
questioning, Mr. Garrett.
    We now go to Mr. David Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman.
    And thank you to the witnesses for your testimony this 
morning.
    I would like to focus very specifically on the sanctions 
and what specific actions the administration is considering in 
terms of removing or revising any of the existing waivers on 
sanctions on Burma. I know earlier in testimony it was 
suggested that waivers are infrequently used. I just pulled up 
on my phone a long list of sanctions that were waived with 
respect to Burma.
    So I want know very specifically, is the administration 
looking at revoking or revising those and instituting 
additional sanctions? What is the downside of that? And 
particularly sanctions with the military in Burma that is 
responsible for this outrageous and atrocious behavior.
    Mr. Murphy. Thank you, Congressman.
    I think what you are getting at is what consideration of 
actions can we take that can effect behavior change inside the 
country of actors who need to stop the violence.
    We have a deliberative process, interagency process, 
underway, where we are looking at all options----
    Mr. Cicilline. Including the waivers? Including removing 
the waivers that have been previously granted?
    Mr. Murphy. All the available options are under 
consideration: Reimposing restrictions, expanding restrictions. 
Or is there a different variety of assistance and cooperation 
that in fact is needed?
    What we are motivated by are two things that I would like 
to highlight.
    One, there does need to be accountability for any abuses 
and violations. That is a very important track. That will be 
ongoing.
    In the very immediate term, we need to take actions that 
help the plight of people who are vulnerable, at risk, facing 
violence. We don't want to take actions that exacerbate their 
suffering. There is that risk in this complicated environment.
    Mr. Cicilline. I understand----
    Mr. Murphy. That doesn't withhold us from action, but it 
means we want to be very deliberative and careful about what we 
do, Congressman.
    Mr. Cicilline. I understand that.
    In fact, that leads to my very next question. What are we 
doing to ensure--and this is really for the Administrator--that 
women and girls who have been subjected to unspeakable sexual 
violence are receiving the care and not only medical care but 
the comprehensive counseling and all the things that a victim 
of this kind of violence absolutely requires? And are we taking 
any steps, either alone or with our partners, to help mitigate 
the risk of sexual violence?
    Ms. Somvongsiri. Thank you, sir, for raising that very 
important issue.
    As you highlighted, within a vulnerable population already 
within the Rohingya, women and adolescent girls are especially 
vulnerable. We have talked about the limitations on movements 
within the community. Women and girls have further limitations, 
not only just staying in the camps but, as Muslim women and 
girls, in some cases having to stay in their homes and 
shelters, which really makes them much more vulnerable and 
susceptible to things like trafficking.
    As you know, we do not have access to northern Rakhine 
State to see the situation firsthand, but we have heard reports 
of those who have crossed over to Bangladesh of exactly the 
sorts of gender-based violence you have mentioned.
    Mr. Cicilline. But my question is--I am aware of it. I 
think we all know the problem. I am asking, are we doing 
anything about it?
    Ms. Somvongsiri. So what we are doing on the humanitarian 
side is helping to provide things like psychosocial counseling, 
which is very important, getting access to health care, 
clinical rape kits, trying to provide child-friendly and other 
safe spaces.
    But, as I mentioned earlier, until we are actually able 
to--that we can do on the Bangladesh side, and Ambassador 
Storella may want to elaborate on that. But within northern 
Rakhine State itself, since we do not have access, we are 
unable to provide the kind of protection services that are 
essentially needed. So we continue to call on the need for 
that.
    Mr. Cicilline. You hear the numbers in terms of the 
refugees who have gone into Bangladesh--nearly 750,000, I 
think. And we have to wonder, have we lost our leverage as a 
country to be effective in this conversation when we only are 
accepting 145,000 refugees, and what impact is that having on 
what we are asking of other countries and what they are 
undertaking?
    It seems like it would have significantly reduced our 
leadership and our credibility on the issue of refugees when, 
at the time of a crisis like this, we have actually reduced to 
an embarrassingly small amount the number of people we are 
accepting into our own country.
    I don't know--anyone is free to answer that.
    Ambassador Storella. Congressman Cicilline, the United 
States' record on accepting refugees is quite an admirable one. 
Since 1975, the United States has resettled over 3.3 million 
refugees in the United States, giving them full rights to 
citizenship, work, education, and the rest here.
    The President each year, as you know, sets a ceiling for 
the fiscal year coming up on the number of refugees who will be 
admitted. This year, it was set at 45,000. The number varied 
over times, but it is important to recognize that it is a 
ceiling. And that means that, over the years, we have never 
actually surpassed the ceiling. We have come very, very close 
several times, but sometimes we have missed by 10,000, even 
20,000.
    Mr. Cicilline. Ambassador, that is really not my question. 
With all due respect, I know our history, our very proud 
history of refugees, and it makes me very sad that that history 
is changing.
    My question is, is that decrease diminishing our leverage 
in this crisis? You know, I appreciate the history. It is 
exactly what is not happening now. And I am asking, is that 
undermining our ability to be a leader in this crisis?
    Mr. Yoho [presiding]. Mr. Ambassador, I am going to have to 
cut you off. If you could submit that answer for Mr. Cicilline, 
I would greatly appreciate it.
    David, if you don't mind----
    Mr. Cicilline. No, I don't----
    Mr. Yoho. Thank you.
    Mr. Cicilline. Can I just ask unanimous consent that these 
three pages of waivers granted for Burma be entered into the 
record?
    And I look forward to a written response as to what the 
administration is going to do with respect to specific reviews.
    Mr. Yoho. I think those are very important. And, without 
objection, we will submit those.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Mr. Yoho. Thank you.
    Mr. Perry?
    Mr. Perry. Thank you, Mr. Chairman.
    Let me join the long list of those who give accolades and 
acknowledgment to the Ambassador of Bangladesh and our 
gratitude for your help and assistance in this crisis.
    Ladies and gentlemen of the panel, thank you.
    I am frustrated again this week, as I was last week. Let's 
get right to the point. Do we understand, do we acknowledge and 
agree that time is of the essence? There is an urgency 
associated with this circumstance, right?
    Because last week we were talking about 1 million Rohingya, 
right? And as of last week, in about a timespan of 30 days, as 
of last week, 488,000, from my notes, were either displaced or 
murdered. Right? So, if you are looking at the sheer numbers, 
we have about 30 days to deal with this.
    Now, we are all talking, we are sitting here in our white 
shirts and our suits, and these people are being slaughtered 
and thrown out of their country. I am frustrated.
    Burma is a sovereign nation, as the United States is a 
sovereign nation. Somebody needs to take action. And I don't 
think anybody here is discussing or is implying that we should 
go invade Burma. I don't think anybody is implying that, and I 
am certainly not implying that. But while we talk about 
sanctions and we talk about foreign assistance, these things 
take a long time. We have 30 days or less.
    So my question to you--first of all, Mr. Murphy, I 
appreciate--and, Ambassador, Ms.--I am sorry, I am not even 
going to attempt it--what can be done right--or can sanctions 
have an effect right now? Can foreign assistance have an effect 
right now? What can have an effect right now? Right now. These 
people are dying today as we sit here.
    Mr. Murphy. Congressman, I think we share your frustration 
and concern, absolutely.
    Mr. Perry. I know you do.
    Mr. Murphy. And----
    Mr. Perry. The U.N.
    Mr. Murphy [continuing]. I will restate----
    Mr. Perry. Anything.
    Mr. Murphy [continuing]. That we are fully seized with 
taking all measures to end human suffering now. We are working 
with the United Nations--U.N. Security Council, U.N. Human 
Rights Council--with ASEAN, with all of the stakeholders in 
Burma. I traveled there 2 weeks ago. Our Ambassador and his 
team are relentlessly pursuing all efforts.
    We have achieved some results. There is humanitarian 
assistance being delivered in Rakhine State. It is 
insufficient, but we have opened an aperture, and we are 
seeking to widen it to reach all people in need.
    We are looking for actors to take steps to stop the 
violence, including vigilante action undertaken by local 
civilians. There are responsibilities for the government, for 
the armed forces, for local ethnic leaders. We are 
communicating with all of them. We are consulting with our 
partners around the world.
    We are on this in every way possible----
    Mr. Perry. I don't doubt you. I don't doubt you for an 
instant. And I sense that you sense the urgency as well. But, 
with all due respect, it just doesn't seem to me that any of 
the things that you are talking about are going to be 
effectual.
    We are going to get at the end of these next 30 days, and 
maybe we are going to have another hearing in this nice room 
and we are going to talk about all the things that happened, 
and we are going to do an investigation, and we are going to 
get after those who are responsible, and it is all going to be 
history.
    I am looking for some methodology, some vehicle today, 
right now, while we sit here, where you walk out of this room 
and go say, we are going to go do this and it is going to stop 
this from happening. Is there any potential for anything like 
that? Whether it is the U.S., whether it is our partners in the 
region, whether it is the United Nations?
    Because I feel like we are talking; that is great. We are 
making sure that we don't make the matter worse, which is 
admirable and appropriate. But I have to tell you, I have to 
walk out of here and vote in a couple minutes. I have no 
confidence that the Rohingya aren't going to continue to be 
slaughtered until we come back in this next room. And they are 
all in this man's country, and none of them are in Burma.
    Is there any reason for me to believe otherwise as I walk 
out of here to go vote?
    Mr. Murphy. I wish, Congressman, there was a simple 
solution. We really do. What we have to keep focused on are the 
efforts underway. This doesn't get resolved without 
stakeholders inside the country taking action.
    The fact that there is humanitarian assistance, there is an 
agreement to implement the Kofi Annan recommendations, there 
are discussions with Bangladesh on repatriation of refugees. We 
have to support these efforts, we have to hold those 
accountable. And there are efforts underway to identify those 
who are responsible for violations and human rights----
    Mr. Perry. If these folks don't let us in their country now 
to do an investigation, what makes us think that they are going 
to allow an investigation post facto where we can take them to 
The Hague for war crimes? Why would they do that?
    Mr. Murphy. I don't take the reluctance of any of these 
stakeholders in the country as a reason to stop our efforts.
    Mr. Perry. I understand. I----
    Mr. Murphy. We are absolutely relentless on this, sir.
    Mr. Perry. Thank you. Thank you. My time has expired.
    Mr. Yoho [presiding]. I appreciate your passion and your 
concern there, Mr. Perry.
    Ambassador, did you want to say something else? Go ahead.
    Ambassador Storella. I just want to say, and it doesn't 
really answer Congressman Perry's question altogether, but I do 
want to assure you, Congressman, that the generosity of this 
Congress has made it possible for the United States to provide 
lifesaving assistance now to hundreds of thousands--well, 
100,000, I will say for sure, who have been fed thanks to the 
generosity of this Congress.
    Mr. Yoho. I appreciate you saying that. You know, and this 
is just something we have seen over and over again. As you saw 
the frustration here, I am like Mr. Perry, I want action now. 
We don't need to study. We need action.
    And when you have a military government mixed with a 
civilian government, but the military has more clout and has 
veto power, I don't see things changing, because there's nobody 
holding the military people accountable. And that is where the 
U.N. needs to be more effective, the world community needs to 
be more effective.
    How effective would it be if we were to suspend foreign aid 
until Burma allowed the U.N. inspectors in the Rakhine State? 
Real quickly, and then I am going to close out.
    Ms. Somvongsiri. So thank you for raising that. I think 
with the gravity of the situation, we obviously need to look at 
all the possible tools of leverage on the table.
    I would note, though, our foreign assistance right now, 
none of our foreign assistance is going directly to the 
Government of Burma, it is mostly in terms of----
    Mr. Yoho. It looks under 5 percent.
    Ms. Somvongsiri. So it is more in terms of supporting the 
people of Burma, civil society organizations, the democrat, the 
institutions that are necessary for the transition and peace 
process. So we would strongly encourage that we take a look at 
that issue as we consider that.
    Mr. Yoho. I want to thank you all for being here, the 
audience, for being here, being respectful and weighing in on 
this very important hearing.
    I want to thank the witnesses, members, for taking the time 
to be here. This is a human rights issue and a national 
security issue. We will remain attentive to this pressing 
matter. And as it gets imperative, that we will hold all 
perpetrators of this violence, including the Burmese Government 
and the military, accountable.
    The committee stands adjourned.
    [Whereupon, at 10:59 a.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               
 Material submitted for the record by the Honorable Eliot L. Engel, a 
         Representative in Congress from the State of New York
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 Material submitted for the record by the Honorable David Cicilline, a 
       Representative in Congress from the State of Rhode Island
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                                 <all>
</pre></body></html>
